            U.S. Department of
                                                       Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:    INFORMATION: Need to Establish a Legal                    Date:    June 4, 2004
            Presence Requirement for Obtaining a
            Commercial Driver’s License

 From:      Kenneth Mead                                            Reply to   J-3
                                                                    Attn of:
            Inspector General

    To:     Deputy Secretary
            Chief of Staff
            General Counsel
            Administrator, FMCSA


            In order to enhance aviation security following the terrorist attacks of September 11,
            2001, the Federal Government implemented the US-VISIT program under which
            non-U.S. citizens arriving at U.S. airports and seaports are photographed,
            fingerprinted, and subject to search. Since the program began in January, over
            4.5 million people have been processed. According to the Department of Homeland
            Security, it has proven to be an effective tool in identifying persons with known or
            suspected links to terrorist organizations. This program will be expanded by
            December 2005 to cover all land crossings.

            While these steps are being taken to enhance security by screening visitors to the
            United States, we believe it is time to consider whether additional measures are
            needed that would strengthen controls over the process for obtaining a commercial
            driver’s license (CDL). We are concerned that vulnerabilities exist within the
            current CDL program which allow persons to obtain a license without being legally
            present in the United States.

            Legal Presence Requirements For Obtaining CDLs

            • DOT CDL regulations do not ensure that all operators of interstate motor
              vehicles are U.S. citizens or otherwise legally present in the United States. Only
              commercial drivers applying for a CDL with a hazardous material endorsement
              (hazmat endorsement) are required to provide proof of citizenship or lawful


           Control No. 2004-054
    permanent residence.1 Applicants can demonstrate such proof through a variety
    of documents.2

• Under DOT regulations, applicants for CDLs without a hazmat endorsement do
  not have to provide proof of citizenship or legal presence. Specifically,
  non-hazmat CDL regulations only require an applicant to provide a social
  security number (SSN). This, in and of itself, does not ensure the applicant’s
  citizenship or their legal presence.

• Since nearly 70% of the 11 million CDLs issued since 1989 do not carry a
  hazardous materials endorsement, this presents a very large loophole. Given our
  current environment and the efforts to enhance security, we question why the
  legal presence measures are limited to just those CDL applicants seeking hazmat
  endorsements.

• Our 2002 audit report of CDL programs recommended that all CDL applicants
  demonstrate citizenship or legal presence.3 We did not recommend that the
  specific requirements for hazmat endorsements be applied to all CDL applicants.

• The Federal Motor Carrier Safety Administration (FMCSA) agreed to this
  recommendation and stated that it would address this issue through a planned
  rulemaking in October 2003. The draft May 2004 DOT regulatory agenda
  indicates that the issuance of this proposed rule has now moved to May 2005.
  We are concerned that the continuing delay in issuing this proposed regulation
  exposes us to increased risk.

Need for Federal Regulations

• Each state establishes controls for issuing CDLs and ensuring the identity and
  qualifications of applicants. Some states have taken actions to tighten controls,
  such as verifying the validity of applicants’ SSNs.



1 See 49 U.S.C. § 5103a. In addition to citizenship requirements, applicants for the hazmat endorsements
must be deemed not to pose a “security risk.” See 49 C.F.R. § 383.71(a)(9). Criminal background checks,
citizenship checks, and fingerprinting are all required for CDLs with a hazmat endorsement. A permanent
resident is someone who can legally reside on a permanent basis as an immigrant in the United States in
accordance with the immigration laws. 8 U.S.C. § 1101(a)(20).

2 For U.S. citizens these include: U.S. passport, certificate of birth, certification of birth abroad, certificate of
naturalization, or a certificate of U.S. citizenship. For lawful permanent residents, proof may be shown by:
permanent resident card, temporary stamp in foreign passport, temporary stamp, or a reentry permit. 49
49 C.F.R. § 383.71(a)(9).

3 Improving the Testing and Licensing of Commercial Drivers, May 8, 2002; Report No. MH-2002-093.
http://www.oig.dot.gov/show_pdf.php?id=781.


                                                         2
• However, simply requiring an SSN on a CDL application, without additional
  verified documentation, does not demonstrate that the applicant is a U.S. citizen
  a permanent legal resident4, or otherwise legally present in the United States.

• A recent OIG-led investigation in Utah uncovered CDL testers that had passed
  applicants who were either not qualified, had faulty documentation, or both.
  Half of the 39 individuals indicted for fraudulently obtaining CDLs were illegal
  aliens.6

• The Department's current regulations do not provide a remedy should a state
  discover that a CDL holder is illegally present in the United States. The two
  regulatory provisions for potentially revoking a CDL are silent on legal presence
  requirements:

      § Disqualifying offenses are limited to infractions such as serious traffic
        violations, railroad-highway grade-crossing violations, and violations of out-
        of-service orders.7 Driving in an illegal-resident status is not a disqualifying
        offense.

      § Providing any false information on a CDL application may result in
        revocation and suspension of the license.8 These penalties, however, do not
        explicitly revoke a CDL upon determination of non-legal presence.

Options for Consideration

• While CDLs with hazmat endorsements necessarily require a strict standard, we
  would recommend, at a minimum, that all CDL applicants demonstrate that they
  are either a U.S. citizen, a permanent legal resident, or otherwise legally present
  in the United States. One opportunity to address these concerns is through the
  FMCSA planned rulemaking.

• Having a requirement for verification of SSNs or for fingerprinting when issuing
  a CDL would help prevent fraud in the program and further enhance security by
  verifying applicants’ identification.




4   42 U.S.C. § 405.

6   Driver License Case Upsetting, Desert News, December 6, 2003, at A10.

7   See 49 C.F.R § 383.51.

8   See 49 C.F.R § 383.73(g).



                                                     3
•   The Department should also consider the potential effect on the CDL program of
    the Administration’s proposal to provide temporary work visas to certain aliens.
    While details are still being developed, it appears that workers with temporary
    work visas, should they be issued SSNs, would be eligible to obtain a CDL, but
    not a CDL with a hazmat endorsement since hazmat CDLs require citizenship or
    permanent residency.


                                         #




                                         4
